No. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,

Petitioner,

v.
DZHOKHAR A. TSARNAEV,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
BRIEF IN OPPOSITION
DAVID PATTON
DEIRDRE D. VON DORNUM
DANIEL HABIB
FEDERAL DEFENDERS OF
NEW YORK, INC.
52 Duane Street, 10th Floor
New York, NY 10007

GINGER D. ANDERS
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave., NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
Ginger.Anders@mto.com

CLIFF GARDNER
LAW OFFICES OF CLIFF GARDNER
1448 San Pablo Ave.
Berkeley, CA 94702
Counsel for Respondent

i
QUESTIONS PRESENTED
1. Whether, in this case involving pretrial publicity
“unrivaled in American legal history,” Pet. App. 19a,
the court of appeals reasonably applied its decades-old
supervisory rule that requires asking prospective jurors in a small subset of high-profile cases about the
content of the information to which they have been exposed.
2. Whether the court of appeals correctly held that
the district court committed reversible error in excluding mitigating evidence that respondent’s older
brother had previously committed three brutal murders in the name of jihad, where the defense’s central
mitigating theory was that respondent had acted under his brother’s influence and had a lesser role in the
offense.

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
TABLE OF CONTENTS............................................. ii
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE.................................... 3
ARGUMENT ............................................................. 12
I.

This Court should deny certiorari. ................... 12

II.

The First Circuit’s fact-bound holding
that the jury was deprived of relevant
mitigating evidence does not warrant
review................................................................. 14
A. The First Circuit’s decision does not
warrant review. ............................................ 15
B. The First Circuit correctly determined
that excluding the Waltham evidence
was prejudicial error. ................................... 16
C. The First Circuit correctly held that
the government failed to prove that
the error was harmless beyond a
reasonable doubt. ......................................... 21

III. The First Circuit’s application of its longestablished voir dire rule does not merit
review................................................................. 24
A. The decision below does not warrant
review. .......................................................... 24

iii
B. The decision below falls well within
the courts of appeals’ broad leeway to
apply supervisory rules. .............................. 26
CONCLUSION ......................................................... 34
APPENDIX
Appendix A – Opinion and Order of the
United States District Court for the
District of Massachusetts (November 25,
2014) .................................................................. 1a
Appendix B – Order of the United States
District Court for the District of
Massachusetts (April 17, 2014) ........................ 5a
Appendix C – Lobby Conference, United
States District Court for the District of
Massachusetts (April 17, 2015) (Excerpt) ........ 6a
Appendix D – Penalty Phase Verdict (May 15,
2015) .................................................................. 9a

iv
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Aldridge v. United States,
283 U.S. 308 (1931) ........................................ 30, 31
Bosse v. Oklahoma,
137 S. Ct. 1 (2016) .................................................. 4
Brady v. Maryland,
373 U.S. 83 (1963) ............................................ 2, 11
Castro v. United States,
540 U.S. 375 (2003) .............................................. 33
Cupp v. Naughten,
414 U.S. 141 (1973) ........................................ 26, 27
Dennis v. United States,
339 U.S. 162 (1950) .............................................. 28
Franks v. Delaware,
438 U.S. 154 (1978) .............................................. 17
Green v. Georgia,
442 U.S. 95 (1979) ................................................ 21
Gregg v. Georgia,
428 U.S. 153 (1976) .............................................. 17
Irvin v. Dowd,
366 U.S. 717 (1961) .............................................. 28
Joseph v. United States,
135 S. Ct. 705 (2014) ............................................ 25

v
TABLE OF AUTHORITIES
(continued)
Page(s)
LaBuy v. Howes Leather Co.,
352 U.S. 249 (1957) .............................................. 26
Lockett v. Ohio,
438 U.S. 586 (1978) .............................................. 21
McVeigh v. United States,
526 U.S. 1007 (1999) ............................................ 13
Moussaoui v. United States,
544 U.S. 931 (2005) .............................................. 13
Mu’Min v. Virginia,
500 U.S. 415 (1991) ........................................ 25, 27
Murphy v. Florida,
421 U.S. 794 (1975) .............................................. 28
Ortega-Rodriguez v. United States,
507 U.S. 234 (1993) ........................................ 25, 26
Patriarca v. United States,
402 F.2d 314 (1st Cir. 1968) ..........................passim
Ristaino v. Ross,
424 U.S. 589 (1976) ........................................ 31, 33
Rosales-Lopez v. United States,
451 U.S. 182 (1981) .............................................. 30
Salameh v. United States,
526 U.S. 1028 (1999) ............................................ 13

vi
TABLE OF AUTHORITIES
(continued)
Page(s)
Sampson v. United States,
724 F.3d 150 (1st Cir. 2013) ................................. 12
Skilling v. United States,
561 U.S. 358 (2010) ........................................ 31, 32
Skipper v. South Carolina,
476 U.S. 1 (1986) ............................................ 21, 22
Smith v. Phillips,
455 U.S. 209 (1982) .............................................. 28
Tennard v. Dretke,
542 U.S. 274 (2004) .............................................. 17
Thomas v. Arn,
474 U.S. 140 (1985) .............................................. 26
United States v. Angiulo,
897 F.2d 1169 (1st Cir. 1990) ............................... 26
United States v. Beckner,
69 F.3d 1290 (5th Cir. 1995) .......................... 25, 27
United States v. Casellas-Toro,
807 F.3d 380 (1st Cir. 2015) ................................. 26
United States v. Davis,
139 S. Ct. 2319 (2019) .......................................... 10
United States v. French,
904 F.3d 111 (1st Cir. 2018) ................................. 12

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Hasting,
461 U.S. 499 (1983) .............................................. 30
United States v. Lancaster,
96 F.3d 734 (4th Cir. 1996) .................................. 25
United States v. Lawes,
292 F.3d 123 (2d Cir. 2002) .................................. 25
United States v. Medina,
761 F.2d 12 (1st Cir. 1985) ............................. 32, 33
United States v. Orlando-Figueroa,
229 F.3d 33 (1st Cir. 2000) ................................... 33
United States v. Quiles-Olivo,
684 F.3d 177 (1st Cir. 2012) ................................. 26
United States v. Rhodes,
556 F.2d 599 (1st Cir. 1977) ................................. 33
United States v. Umaña,
750 F.3d 320 (4th Cir. 2014) ................................ 15
United States v. Vest,
842 F.2d 1319 (1st Cir. 1988) ............................... 33
Victor v. Nebraska,
511 U.S. 1 (1994) .................................................. 21
Wiggins v. Smith,
539 U.S. 510 (2003) .............................................. 15

viii
TABLE OF AUTHORITIES
(continued)
Page(s)
STATE CASES
Bolin v. State,
736 So. 2d 1160 (Fla. 1999) .................................. 27
People v. Tyburski,
518 N.W.2d 441 (Mich. 1994) ............................... 27
State v. Pauline,
60 P.3d 306 (Haw. 2002) ...................................... 27
FEDERAL STATUTES
18 U.S.C. 924(c) ......................................................... 10
18 U.S.C. 3592(a) ......................................................... 7
18 U.S.C. 3593(c) ....................................................... 17
18 U.S.C. 3595(c)(2)(C) .............................................. 30

1
INTRODUCTION
The government all but concedes that this case does
not come close to satisfying this Court’s ordinary criteria for review. The government seeks error correction
of the First Circuit’s admittedly “case-specific” rulings
on two independent grounds for vacating respondent’s
death sentences. Error correction is warranted, the
government urges, because of the gravity of the underlying offense. Pet. 15. Although there is no doubt that
the Boston Marathon bombing was a grievous act of
terrorism that has had a severe impact on its victims,
this Court does not exercise its certiorari jurisdiction
based on the nature of the underlying crime. And even
if the Court were inclined to engage in error correction
here, intractable vehicle problems would prevent the
government from benefiting from review. The government has failed to challenge a third ground on which
the court of appeals vacated respondent’s death sentences. And the First Circuit has strongly signaled
that in the event of a remand, it will again vacate respondent’s death sentences based on yet another error—a juror-misconduct issue not definitively adjudicated below.
Neither of the questions presented in the petition
is a plausible candidate for review—yet because each
concerns a ruling that is sufficient to support the judgment, this Court would have to review both. The first
question presented challenges a long-established First
Circuit supervisory rule, reviewable only for reasonableness, that governs a narrow aspect of voir dire questioning in rare cases. The second question presented
seeks error correction of the First Circuit’s application
of well-established evidentiary standards to the idiosyncratic facts of this case. That question suffers from
an insurmountable vehicle problem, as it is inter-

2
twined with the third ground on which the First Circuit vacated respondent’s death sentences—a violation
of Brady v. Maryland—that the government does not
challenge here. Because this Court would have to take
the First Circuit’s Brady ruling as given, the government cannot prevail on the related evidentiary question on which it seeks review. Certiorari is therefore
unwarranted.
Even if the Court were to grant review and reverse—notwithstanding the unchallenged Brady ruling—the government almost certainly would not benefit. On remand, the First Circuit would address an
issue on which it has not yet ruled: the district court’s
refusal to investigate uncontroverted documentary evidence that two jurors, both ultimately seated, lied
during voir dire about their social media activities.
Those activities included a Twitter post calling respondent a “piece of garbage,” and a Facebook conversation in which a juror was exhorted to “get on the
jury” to ensure that respondent would be “taken care
of.” Pet. App. 37a, 39a, 61a. The court of appeals signaled that it was all but certain to vacate respondent’s
death sentences on that ground as well. Id. at 39a.
Granting review would therefore simply delay the inevitable—vacatur of respondent’s death sentences.
On the merits, the government has identified no error. The First Circuit first held that the district court
had not followed a decades-old supervisory rule requiring that prospective jurors in highly publicized cases
be asked about the content of the information to which
they have been exposed. That rule falls well within
the broad bounds this Court has drawn for circuit supervisory rules, as content-specific questioning elicits
information critical to assessing jurors’ impartiality in
high-profile cases. The First Circuit next held that the
district court erred in excluding mitigating evidence

3
that respondent’s older brother, Tamerlan, had previously murdered three men in the name of jihad and
recruited an accomplice to help. That evidence went
to the heart of respondent’s mitigation case because it
showed Tamerlan’s planning of extreme violence and
his ability to influence others to join him in those acts.
Finally, the court held that the failure to disclose certain information about the murders violated Brady
and prevented respondent from developing additional
mitigating evidence. The government does not challenge that holding, and it must be taken as given.
Taken together, these considerations leave no
doubt that the petition should be denied.
STATEMENT OF THE CASE
1. On Patriots’ Day 2013, respondent and his older
brother Tamerlan detonated two bombs at the Boston
Marathon’s finish line, killing Krystle Campbell,
Lingzi Lu, and eight-year-old Martin Richard, and inflicting “horrific, life-altering injuries” on hundreds of
others. Pet. App. 1a, 4a-5a. The brothers remained at
large for several days, while “[r]eports and images” of
the attack and its aftermath “flashed across the TV,
computer, and smartphone screens of a terrified public—around the clock, often in real time.” Id. at 2a.
Three days after the bombing, the FBI released images of the brothers and sought the public’s help in
identifying them, triggering “the most crowdsourced
terror investigation in American history.” Resp. C.A.
Br. 51. That night, the brothers shot and killed Sean
Collier, an MIT police officer. After carjacking an
SUV, they engaged in a firefight with police, which
ended when respondent, fleeing in the SUV, struck
and killed Tamerlan. Pet. App. 7a-9a.
During the ensuing manhunt, Governor Deval Patrick ordered residents of Boston and five neighboring

4
communities to “‘shelter in place’”—“to remain behind
closed doors and ‘not to open the door for anyone other
than a properly identified law enforcement officer.’”
Pet. App. 10a. That night, police discovered respondent hiding in a boat. There, respondent had written “a
manifesto justifying his actions,” accusing “[t]he U.S.
Government [of] killing our innocent civilians,” and
stating that he could not “stand to see such evil go unpunished.” Id. at 9a-10a. When news of respondent’s
arrest broke, Bostonians celebrated. Resp. C.A. Br. 52.
The city “adopted the ‘Boston Strong’ slogan”—which
quickly became ubiquitous—“to convey a message of
courage and resilience.” Pet. App. 12a.
2. a. “[T]he reporting of the events here—in the
traditional press and on different social-media platforms—stands unrivaled in American legal history.”
Pet. App. 19a. The publicity included videos of respondent placing a bomb, of “the carnage-filled terror
scene—with the sights and sounds of the wounded and
the dying in full display,” and of respondent’s arrest.
Id. at 19a-20a.
The publicity also included information that could
not have been admitted at trial: respondent’s inadmissible and involuntary confession, made from his hospital bed after his requests for counsel were ignored; and
statements from the victims’ family members, elected
officials, and civic leaders that respondent should receive the death penalty. Pet. App. 11a, 20a-21a, 165a170a; see Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016) (per
curiam). Despite his past opposition to capital punishment, Boston Mayor Thomas Menino opined: “this individual” should “get[] the death penalty.” Resp. C.A.
App. 23.A.10843. So too Patricia Campbell, Krystle’s
mother, a “longtime opponent of the death penalty”
who thought that in this case, “an eye for an eye feels
appropriate.” Resp. C.A. App. 24.A.10977a-10978.

5
Mark Fucarile, who lost a leg, said that seeking the
death penalty was “the right thing to do.” Id. at 11048.
More generally, conventional and social media described respondent as “evil,” a “monster,” “callous,”
“depraved,” “vile,” a “scumbag,” and the “devil.” Pet.
App. 21a, 167a.
b. A grand jury charged respondent with 30 offenses, and the government sought the death penalty.
Pet. App. 12a-14a n.9, 15a. In light of the extraordinary pretrial publicity, respondent asked the district
court to question prospective jurors about the contents
of the coverage they had seen. Id. at 16a.
Although the government now disputes the wisdom
of those inquiries, it fails to acknowledge having at
first supported content-specific questioning. The parties submitted a joint proposed juror questionnaire
that asked: “What did you know about the facts of this
case before coming to court today (if anything)?” Pet.
App. 24a. The government later suggested that jurors
could be asked the “three or four most memorable
things” they had heard. Resp. C.A. Add. 304. And the
parties submitted agreed-upon preliminary jury instructions that told jurors to explain what they had
“read, seen, heard, or experienced in relation to the
case.” D. Ct. Doc. 688-1, at 4.
After the government changed position and began
opposing content-specific questions, the court refused
to pose them. The court explained that it would suffice
to ask jurors whether, as result of pretrial publicity,
they had formed an opinion as to guilt or penalty, and
if so, whether they could set that opinion aside. Pet.
App. 26a. Respondent objected that this approach
would “make[] the juror the judge of [his or her] own
impartiality.” Id. at 26a-27a. The court acknowledged: “To a large extent that’s true.” Id. at 27a.

6
The court largely rejected further attempts to ask
content-specific questions. Resp. C.A. Br. 193-196;
Pet. App. 30a-31a. Contrary to the government’s assertion that defense counsel had “considerable latitude” to pose such questions (Pet. 8), the court sustained the government’s objections to some contentspecific follow-ups, including as to seated jurors. E.g.,
Resp. C.A. Add. 177, 191. The court qualified many
prospective jurors—including nine seated jurors—
without learning anything about the publicity each
had seen, deferring instead to their untested assurances of impartiality. Pet. App. 41a; Resp. C.A. Br.
194-196. The government is also incorrect in asserting
(Pet. 8) that “all” seated jurors had “not paid close attention to the media coverage.” Two had seen “a lot”
of coverage, a third had seen “somewhere in between”
“a lot” and “a moderate amount,” and six believed,
based on the coverage, that respondent was guilty.
Resp. C.A. App. 26.A.12132; Resp. C.A. Br. 83-84.
3. During jury selection, respondent discovered
that two venirepersons had lied during voir dire.
a. Juror 286, the foreperson, had posted on social
media 22 times about the case, including retweeting
that respondent was a “piece of garbage,” but falsely
claimed that she had not. Pet. App. 29a, 37a-39a.
Among other posts, Juror 286 grieved the “[l]ittle 8yr
old boy that was killed at marathon,” described being
“locked down at home” with her family during the shelter-in-place order, and, after petitioner’s arrest, retweeted: “Congratulations to all of the law enforcement professionals who worked so hard and went
through hell to bring in that piece of garbage.” Id. at
38a. During jury selection, however, Juror 286 asserted that she had not “commented on this case * * *
in an online comment or post,” that she used Twitter
“just [for] social” purposes, and that neither she nor

7
her family had been “asked to ‘shelter in place.’” Id. at
29a, 33a.
b. Juror 138 disobeyed the district court’s instructions and then lied about having done so. Pet. App.
28a-29a, 31a, 36a-37a. All jurors were admonished
“not to discuss this case,” including on Facebook. Id.
at 28a. Nonetheless, Juror 138 described jury selection on a public Facebook thread. Several friends commented. One urged: “Play the part so u get on the jury
then send him to jail where he will be taken care of.”
Id. at 37a. During voir dire, however, Juror 138 said
that he had not discussed the case, including on Facebook, and told the court that none of his Facebook
friends was “commenting about this trial.” Id. at 31a.
c. During jury selection, respondent discovered
those social-media posts and moved to strike both jurors for cause, or in the alternative, for further voir
dire. Pet. App. 35a-36a & n.21. The government opposed both motions, and the district court denied
them. Id. at 39a-40a. Both jurors were seated.
4. At trial, respondent conceded guilt and the jury
convicted him on all counts. At the sentencing stage,
respondent, who was 19 years old at the time of the
offenses, urged the jury to sentence him to life imprisonment, arguing “that Tamerlan was the radicalizing
catalyst.” Pet. App. 2a. Pursuant to 18 U.S.C. 3592(a),
respondent submitted several mitigating factors reflecting the brothers’ relative culpability, including
that respondent “acted under the influence of his older
brother” and was susceptible to following his lead, and
that Tamerlan planned and directed the bombings.
Pet. App. 70a, 82a-83a n.48.
a. The district court recognized that evidence of
Tamerlan’s aggressive behavior was probative of these
mitigating factors. The court thus admitted evidence

8
that Tamerlan “sometimes got argumentative” during
religious services, and “yelled at a store owner for selling halal turkey.” Pet. App. 70a-71a.
b. To adduce more meaningful proof, respondent
sought to show that Tamerlan had a history of recruiting others into his homicidal plots. On September 11,
2011, Tamerlan had robbed and murdered three marijuana dealers in Waltham, Massachusetts, binding
and beating them before slitting their throats, and had
recruited a friend, Ibragim Todashev, to help. Pet.
App. 64a-66a. Respondent “learned * * * months after
the fact * * * that Tamerlan had butchered the men,
one of whom was a close friend—actions motivated by
Tamerlan’s vision of jihad.” Id. at 76a.
Soon after the bombings, law enforcement officers
elicited from Todashev a confession that he and Tamerlan had committed the murders. Pet. App. 64a-65a.
After confessing, Todashev attacked the officers and
was killed. The government advised respondent of
“the fact and general substance of Todashev’s statements,” but refused to disclose recordings and reports
of the confession. Id. at 66a-67a. The district court
refused to compel production. Supp. App., infra, at 2a3a, 5a. 1
The government moved in limine to exclude any evidence concerning the Waltham murders from the penalty phase. Pet. App. 68a. The government called
Todashev’s confession “unreliable,” but did not tell the
district court (and does not mention here) that it had
credited Todashev’s confession in applying for a warrant to search Tamerlan’s car for evidence of the murders. Id. at 67a-68a, 80a-82a & n.47. In a supporting
Respondent’s supplemental appendix contains lower-court rulings relevant to the petition, but omitted from the petition appendix.
1

9
affidavit, an FBI agent embraced Todashev’s statements that:
•

“[H]e and Tamerlan had agreed initially just to
rob the victims, whom they knew to be drug
dealers.”

•

“Tamerlan had a gun, which he brandished to
enter the residence.”

•

“Tamerlan decided that they should eliminate
any witnesses to the crime, and then Todashev
and Tamerlan bound the victims, who were ultimately murdered.”

Pet. App. 81a n.47.
Unaware of that affidavit, the district court
granted the government’s motion in limine, ruling that
“‘there simply is insufficient evidence to describe what
participation Tamerlan may have had’ in the Waltham
murders.” Supp. App., infra, at 7a. In the court’s view,
any evidence of the murder “‘would be confusing to the
jury and a waste of time, * * * without any probative
value.’” Ibid. 2
c. In the absence of any evidence showing Tamerlan’s dominant role in the Waltham murders, the government belittled respondent’s mitigation theory.
Prosecutors told the jury that Tamerlan was merely
“bossy,” and “sometimes lost his temper,” but that “no
evidence supported the notion that Tamerlan had ‘co-

Per order of the court of appeals, respondent’s appellate counsel
obtained the recordings and reports of Todashev’s confession.
Pet. App. 68a n.38. Those materials contained “key details” of
Tamerlan’s role: Tamerlan brought the “tools” used to commit
the murders; Tamerlan decided to kill the men; Todashev felt
compelled to participate because “he ‘did not have a way out’”; and
Tamerlan “slashed each man’s throat.” Id. at 67a-69a.

2

10
erced or controlled’” respondent. Id. at 71a. Nonetheless, several jurors found respondent’s relative-culpability mitigating factors proved, and the jury returned
life sentences for the 11 death-eligible offenses where
Tamerlan was present (i.e., every offense except respondent’s placement of a bomb near the finish line).
Resp. C.A. Reply Br. 114-115; Pet. App. 75a, 83a n.49.
5. The court of appeals affirmed 27 of respondent’s
30 counts of conviction and the associated life sentences. 3 Pet. App. 1a-188a. The court vacated respondent’s death sentences and remanded for new
penalty-phase proceedings, on three independent
grounds.
a. First, the court held that the district court had
failed to screen venirepersons properly for exposure to
prejudicial pretrial publicity. Pet. App. 49a-60a. The
court reaffirmed its long-established supervisory rule
that in cases where the trial judge finds “‘a significant
possibility that jurors have been exposed to potentially
prejudicial material,’” the judge, “‘on request of counsel,’” should examine each venireperson “‘to elicit[] the
kind and degree of his exposure to the case or the parties.’” Id. at 50a-51a (quoting Patriarca v. United
States, 402 F.2d 314, 318 (1st Cir. 1968)); see id. at
56a-59a. By refusing to do so here—particularly in the
unprecedented circumstances of this case—the district
court had impermissibly “delegate[d] to potential jurors the work of judging their own impartiality.” Id.
at 60a.
b. Second, the court held that the district court
erred in excluding the Waltham evidence. Pet. App.
73a-84a. The court saw “obvious” “probative value” in
The court reversed three 18 U.S.C. 924(c) counts in light of
United States v. Davis, 139 S. Ct. 2319 (2019). Pet. App. 134a152a.

3

11
“showing that the bombings were not the first time
Tamerlan committed acts of brutality and persuaded
others to help him.” Id. at 75a. The Waltham evidence
was “highly probative of Tamerlan’s ability to influence [respondent].” Id. at 76a. “[A]t least one juror
could reasonably have found that because of what had
happened in Waltham, Tamerlan was not just ‘bossy’
* * * but a stone-cold killer who got a friend to support
his fiendish work.” Ibid. The court further held that
the government had not demonstrated that the error
was harmless beyond a reasonable doubt, because it
could not show that the excluded evidence would not
have convinced “even one juror” that respondent “did
not ‘bear the same moral culpability’ as Tamerlan.” Id.
at 84a.
c. Third, the court of appeals held that the district
court’s refusal to order disclosure of the reports and
the recordings of Todashev’s confession violated Brady
v. Maryland, 373 U.S. 83 (1963). Pet. App. 85a-87a.
That refusal deprived the defense of critical details
about the murders that would have enabled the defense to “investigate[] further and develop[] additional
mitigating evidence.” Id. at 86a. Thus, there was “a
reasonable probability that the material’s disclosure
would have produced a different penalty-phase result.”
Ibid.
d. Because the court of appeals vacated the death
sentences on other grounds, it did not rule on respondent’s contention that the district court’s refusal to investigate Jurors 138 and 286 before seating them violated the Fifth, Sixth, and Eighth Amendments. The
court observed, however:
[W]e repeat a point made in our caselaw again and
again (and again) because it is so very important to
our system of justice: If a defendant “com[es] forward” at any point in the litigation process “with a

12
colorable or plausible” juror-misconduct claim, “an
unflagging duty falls to the district court to investigate the claim.”
Pet. App. 61a (quoting United States v. French, 904
F.3d 111, 117 (1st Cir. 2018)); ibid. (“stressing that
‘[j]urors who do not take their oaths seriously threaten
the very integrity of the judicial process’” (quoting
Sampson v. United States, 724 F.3d 150, 169 (1st Cir.
2013))).
ARGUMENT
I.

This Court should deny certiorari.

The decision below does not warrant review. The
questions presented have no significance beyond this
case. Vehicle problems would prevent this Court from
effectively reviewing the questions. And the government would not benefit from reversal.
A. Because each question presented addresses an
independently sufficient ground on which the First
Circuit vacated respondent’s death sentences, this
Court would have to conclude that both questions warrant review—and to disturb the decision below, it
would have to reverse both holdings. Neither question
warrants review. The government’s challenge to the
court of appeals’ evidentiary ruling seeks error correction of the application of well-established evidentiary
standards to the extraordinary facts of this case. See
Part II.A, infra. And the government’s challenge to
the voir dire ruling concerns a circuit supervisory rule
that by definition affects a vanishingly small number
of cases within the First Circuit, and that is reviewable
only for reasonableness. See Part III.A, infra. A petition that presented either question alone would warrant denial. A petition that must present both is not a
close question.

13
In addition, the government’s failure to challenge
the Brady ruling presents an insurmountable obstacle
to reviewing the Waltham question. In considering
whether the exclusion was harmless, the Court would
have to take as given that, as the court below concluded, respondent would have been able to develop
additional mitigating evidence had much of the Waltham evidence not been withheld. That assumption
would prevent the Court from reversing on this record.
See Part II.A, infra.
B. Certiorari should be denied for the additional
reason that the government is exceedingly unlikely to
benefit from any reversal. On remand, the First Circuit would rule on respondent’s claim that the district
court’s qualification of Jurors 138 and 286 deprived
him of an impartial jury. The First Circuit strongly
signaled that the district court had failed to discharge
its “unflagging duty” to investigate, warranting vacatur. Pet. App. 39a, 61a. In the event of a remand, the
First Circuit is all but certain to vacate respondent’s
death sentences again.
C. The government does not contend that either
issue on which it seeks review meets the Court’s ordinary criteria for certiorari. Instead, the government
argues (Pet. 15) that the gravity of the offense justifies
review. But this Court has often declined to review
cases arising out of similarly grave acts of terrorism.
E.g., Moussaoui v. United States, 544 U.S. 931 (2005)
(9/11 attacks); Salameh v. United States, 526 U.S.
1028 (1999) (1993 World Trade Center bombing);
McVeigh v. United States, 526 U.S. 1007 (1999) (Oklahoma City bombing). That history demonstrates that
the Court grants review based on the need to resolve
legal questions with broad import, not based on the nature of the offense. And even if the Court were inclined

14
to review the decision below, the vehicle issues identified above weigh heavily against certiorari.
The government’s interest in avoiding a new penalty trial also does not justify review. Voir dire is unlikely to be “more onerous” on remand (Pet. 15); potential jurors are now less likely to have extensive memories of pretrial publicity. See also note 8, infra. And
because of the likelihood of another reversal on remand, granting review would frustrate, not further,
the government’s stated interest in expeditious resolution of this case.
II.

The First Circuit’s fact-bound holding that
the jury was deprived of relevant
mitigating evidence does not warrant
review.

The First Circuit correctly held that the district
court’s exclusion of evidence that Tamerlan committed
the Waltham murders was reversible error. Pet. App.
75a-77a. That evidence went to the heart of the defense’s mitigation case because it showed—much more
persuasively than similar, admitted evidence—Tamerlan’s capacity to lead acts of violence and influence others to help. The court of appeals’ decision is a straightforward application of well-established evidentiary
rules. And even if that fact-bound question otherwise
warranted review, the government’s failure to challenge the First Circuit’s Brady ruling would prevent
this Court from ruling for the government on the question presented.

15
A. The First Circuit’s decision does not
warrant review.
1. It is difficult to think of a more fact-bound, casespecific ruling than the decision below. The First Circuit reviewed the district court’s weighing of the Waltham evidence’s probative value against its potential
for confusion; found that excluding the evidence was
error; and determined that the error was not harmless
beyond a reasonable doubt after reviewing the entire
record. The government does not contend that the
First Circuit’s decision deviates from any controlling
legal principle, or that it conflicts with the decision of
any other court of appeals. 4
The government also does not argue that the First
Circuit’s evidentiary decision has implications beyond
this case. With good reason: the circumstances here
are exceedingly unlikely to recur. The court of appeals
emphasized that the district court excluded the Waltham evidence while unaware of information that bore
directly on its probative value and ease of presentation—the search warrant affidavit. See Pet. App. 68a,
81a-82a; pp. 17-18, infra. And the harmlessness inquiry was unusually straightforward, because the jury
found mitigating far less compelling evidence of Tamerlan’s aggressiveness, making it impossible to conclude beyond a reasonable doubt that evidence of Tamerlan’s murders would not have moved at least one juror to reject a death sentence. See Wiggins v. Smith,
539 U.S. 510, 537 (2003).

The sole case that the government cites (Pet. 27) is inapposite.
There the district court admitted some prior-crimes evidence and
excluded other evidence. United States v. Umaña, 750 F.3d 320,
350-351 (4th Cir. 2014). Here, the jury heard no evidence of the
Waltham murders.
4

16
The government invites this Court to wade into the
voluminous record and redo the court of appeals’ evidentiary analysis—simply because the government
hopes for a different result. This Court should decline.
2. Even if this Court were otherwise inclined to review the evidentiary ruling, the government’s failure
to challenge the First Circuit’s Brady ruling would prevent effective review. Pet. App. 85a-86a. The court
held that the reports and recordings of Todashev’s confession, if disclosed, would have enabled the defense to
“develop[] additional mitigating evidence” about Tamerlan’s actions at Waltham, creating a “reasonable
probability” of “a different penalty-phase result.” Id.
at 86a. This Court must take that unchallenged conclusion as given and assume that the record below was
incomplete. But the Court cannot evaluate the government’s arguments concerning how the Waltham evidence would have been presented or why its exclusion
was harmless—let alone reverse—based on an incomplete subset of the available evidence.
B. The First Circuit correctly determined
that excluding the Waltham evidence was
prejudicial error.
1. The defense’s central mitigation theory was that
the older, previously radicalized Tamerlan had
planned the bombings and influenced respondent to
participate. The district court accordingly instructed
the jury to consider several mitigating factors relating
to Tamerlan’s conduct and his influence over respondent: whether, because of Tamerlan’s “aggressiveness,”
respondent was susceptible to his older brother’s influence; whether Tamerlan planned and directed the
bombing; and whether respondent had acted under
Tamerlan’s influence. Supp. App., infra, at 30a.

17
The Eighth Amendment and the Federal Death
Penalty Act require that capital defendants be permitted to introduce evidence relevant to any mitigating
factor. See Tennard v. Dretke, 542 U.S. 274 (2004);
Gregg v. Georgia, 428 U.S. 153, 203-204 (1976). In this
context, the “low threshold” for relevance requires only
that the evidence “tend[] logically to prove or disprove”
a fact that a “fact-finder could reasonably deem to have
mitigating value.” Tennard, 542 U.S. at 285. Section
3593(c) of Title 18 provides that a capital defendant
“may present any information relevant to a mitigating
factor” “regardless of its admissibility.” Although the
district judge retains discretion to exclude evidence “if
its probative value is outweighed by the danger of creating unfair prejudice, confusing the issues, or misleading the jury,” the Eighth Amendment circumscribes that discretion. 18 U.S.C. 3593(c).
2. The district court excluded the Waltham evidence as lacking “any” probative value and requiring a
confusing minitrial. Pet. App. 69a. That ruling was
based on incomplete information; disregarded the
thrust of defense’s mitigation case; and is irreconcilable with the court’s admission of other evidence of
Tamerlan’s aggressiveness.
a. The district court’s conclusion that the Waltham
evidence lacked “any” probative value was based
largely on the government’s assertion that Todashev’s
confession was unreliable. Pet. App. 68a-69a. But the
district court did not know that the government itself
had concluded that Todashev’s statement that Tamerlan had led the commission of the triple murder was
sufficiently reliable to support a sworn search warrant
affidavit. Pet. App. 67a-68a, 80a-82a & n.47; Franks
v. Delaware, 438 U.S. 154, 164-165 (1978) (information
in warrant affidavit must be “believed or appropriately
accepted by the affiant as true”). The government had

18
represented to a magistrate judge that, among other
things, “Tamerlan decided that they should eliminate
any witnesses to the crime” and, with Todashev, murdered the victims. Pet. App. 81a n.47. The First Circuit therefore correctly concluded that the district
court erred in ruling that the evidence was unreliable.
Id. at 82a.
b. The district court’s conclusion that the evidence
lacked any probative value also was irreconcilable
with the court’s own understanding of the defense’s
mitigation case and its other evidentiary rulings.
The defense’s central mitigation theory was that
because Tamerlan was aggressive and already radicalized, respondent was susceptible to, and acted under,
Tamerlan’s influence. The district court therefore admitted, without objection, evidence of Tamerlan’s aggressiveness in situations unrelated to the bombing—
including that Tamerlan yelled at a butcher for selling
halal turkey, poked a man in the chest at a pizzeria,
and “might have” abused his girlfriend. Pet. App. 70a71a, 77a; Resp. C.A. Reply at 100-101. That evidence—though hardly of compelling weight—was unquestionably probative of the defense’s mitigating factors, as it tended to establish that Tamerlan was an
aggressive person who attempted to control other people. Pet. App. 77a. A juror could reasonably infer from
that evidence that Tamerlan influenced respondent
(as three jurors in fact did, Supp. App., infra, at 30a),
making respondent relatively less culpable for the
bombings. Id. at 78a.
The Waltham evidence was in the same vein—but
it was far more convincing. Indeed, without the Waltham evidence, the jury received a misleading portrait
of Tamerlan—a portrait that the government belittled
in its closing argument as merely that of a “bossy”
older brother. Pet. App. 71a. Unbeknownst to the

19
jury, Tamerlan was not just someone who would interrupt an imam or yell at a butcher. He was a violent
criminal who recruited an accomplice to help him murder three men, one a close friend, in the name of jihad.
The First Circuit therefore correctly concluded that
the Waltham evidence was highly probative of at least
two mitigating factors: respondent’s susceptibility to
Tamerlan’s influence and the likelihood he acted under that influence. Pet. App. 76a-77a. Respondent
learned, months after the fact, that Tamerlan had
murdered his friend in furtherance of “jihad”—and respondent became radicalized shortly thereafter. Id. at
76a-78a. The evidence thus would have shown that
respondent’s radicalization reflected Tamerlan’s influence. It also showed Tamerlan’s ability to induce others to participate in horrific violence: “if Tamerlan
could influence” Todashev, an adult, “Tamerlan’s influence over [respondent] (his younger brother with no
prior history of violence) could be even stronger.” Id.
at 76a-77a. In sum, the Waltham evidence “would
have helped the defense show that Tamerlan inspired
his younger brother not only to believe in jihad but also
to act on those beliefs.” Id. at 79a.
The government contends (Pet. 28) that the Waltham evidence lacks “significant probative value” because it involved a “separate crime” with a “separate
accomplice.” But the two mitigating factors relating to
influence did not require identity between the Waltham murders and the bombings. Rather, they invited
the jury to consider Tamerlan’s aggressiveness and influence over others—and how those characteristics
shaped his relationship with his younger brother. Pet.
App. 71a. That is why the district court admitted
other, weaker, evidence of Tamerlan’s unrelated ag-

20
gressive conduct: because it was probative of Tamerlan’s ability to influence respondent. The Waltham evidence is probative for the same reason.
The Waltham evidence was also probative of a third
mitigating factor—the brothers’ relative roles in the
bombing. As the government acknowledged below, evidence of a co-conspirator’s prior violent conduct can
bear on a co-conspirator’s relative culpability. Gov’t
C.A. Br. 198, 205 n.46, 207 (citing cases). Tamerlan
took the “lead role in the Waltham killings.” Pet. App.
75a-76a. And the Waltham murders shared several
salient characteristics with the bombing: in both,
Tamerlan committed the offense “with help from
someone who gave no prior sign of a willingness to
commit such acts,” and “used his interpretations of Islam to justify his actions.” Id. 80a. Tamerlan’s lead
role in Waltham therefore made it “reasonably more
likely that he played a greater role” in the bombings.
Id. at 75a-76a. The government counters (Pet. 29) that
the offenses varied, and that respondent willingly participated in the bombings. But as the First Circuit correctly held, those points go to weight, not admissibility. Id. at 79a.
c. Because the Waltham evidence was highly probative, the only conceivable basis for excluding it was
that, as the district court held and the government
now argues (Pet. 27-28), the evidence would have required a “minitrial.” But one solution to that concern
—which the district court did not consider—would
have been to permit the defense to present evidence of
Tamerlan’s murders through the search warrant affidavit, which was signed by an FBI agent. 5 The affidavit would have cabined the scope of the presentation,
Another solution would have been to present the evidence
through a law-enforcement witness.

5

21
as the government could not have contested its own
agent’s sworn statements. Pet. App. 80a-82a. The district court’s “minitrial” concern was based on incomplete information and therefore should be disregarded.
Moreover, the district court’s erroneous conclusion
that the Waltham evidence lacked “any” probative
value prevented it from properly weighing the evidence’s probative value against the court’s (illfounded) concerns about the scope of presentation. For
that reason as well, the district court’s balancing of interests is not entitled to deference.
C. The First Circuit correctly held that the
government failed to prove that the error
was harmless beyond a reasonable doubt.
The government’s contention that the exclusion of
the Waltham evidence was harmless beyond a reasonable doubt is equally fact-bound—and equally meritless. The First Circuit correctly concluded that the evidence might have convinced at least one juror to vote
against death, Pet. App. 84a, and that the government
failed to demonstrate otherwise to a “near certitude.”
Victor v. Nebraska, 511 U.S. 1, 15 (1994).
1. This Court has never held the exclusion of relevant mitigating evidence to be harmless beyond a reasonable doubt, including in cases involving evidence of
the participants’ relative culpability in the offense.
See, e.g., Skipper v. South Carolina, 476 U.S. 1, 8
(1986); Green v. Georgia, 442 U.S. 95, 97 (1979); Lockett v. Ohio, 438 U.S. 586, 608-609 (1978). That no
doubt reflects the Court’s recognition of the importance of permitting jurors to consider any evidence
that could lead to a sentence other than death—as well
as the difficulty of “confidently conclud[ing]” that particular evidence would not have affected at least one
juror’s consideration. Skipper, 476 U.S. at 8.

22
2. Even on the existing record (putting aside the
additional mitigating evidence that respondent could
have developed absent the Brady violation, see p. 16,
supra), the government cannot demonstrate harmlessness beyond a reasonable doubt. The government’s
primary argument (Pet. 30) is that the jurors would
have voted for death anyway because they heard evidence that respondent was a willing participant who
believed that the bombings were justified. But that
assumes the conclusion. The defense’s mitigation theory was that respondent’s conduct had to be viewed in
light of Tamerlan’s influence. The jurors could not
properly evaluate respondent’s conduct without considering Tamerlan’s commission of murder with an accomplice, and respondent’s knowledge thereof.
Indeed, the jury was receptive to the argument that
Tamerlan influenced respondent. Even with the limited evidence admitted on Tamerlan’s behavior, the jurors rejected a death sentence for all counts based on
acts for which Tamerlan was present—including the
conspiracy counts (which, by definition, focused on the
brothers’ joint responsibility for the bombings), and
counts based on the shooting of Officer Collier. Pet.
App. 83a. And three jurors found all mitigating factors
regarding Tamerlan’s violence, radicalization, and
domination proven. Supp. App., infra, at 30a.
In view of the jury’s acceptance of the far weaker
admitted evidence of influence, the government cannot
show to a “near certitude” that the more powerful Waltham evidence would have made no difference. Jurors
who already believed that respondent was susceptible
to Tamerlan’s influence (as these jurors evidently did),
and who knew that Tamerlan “was predisposed to religiously-inspired brutality,” Pet. App. 78a, could well
have viewed the aggravating evidence on which the
government now relies (Pet. 31)—respondent’s own

23
radicalization and his return to Boston after the bombing—as products of Tamerlan’s violent influence. Certainly it is impossible to conclude beyond a reasonable
doubt that no juror would have so believed.
Likewise, exclusion of the Waltham evidence distorted the penalty phase by permitting the government to argue, without real rejoinder, that respondent
and Tamerlan were equally culpable. The government
capitalized on the defense’s inability to present evidence of Tamerlan’s prior killings, arguing that Tamerlan was merely “bossy,” and that the defense had not
shown that there was “anything about Tamerlan” that
could explain respondent’s participation. Pet. App.
71a, 75a. In the absence of such evidence, the government argued, the brothers should be viewed as equally
culpable. Ibid.
The Waltham evidence was precisely the evidence
that the government repeatedly argued was lacking.
Had the jurors known about the murders, the government could not have argued that Tamerlan was merely
an ordinary, if bossy, older brother. And by pointing
to Tamerlan’s predisposition to commit violence in furtherance of jihad, the defense could have “more forcefully rebutted the government’s claim that the brothers had a partnership of equals.” Pet. App. 78a-79a.
Again, the jury—without knowing that before the
bombing, Tamerlan was a triple murderer who had enlisted a friend as an accomplice, id. at 76a—concluded
that respondent should not receive the death penalty
for any act for which Tamerlan was present. The government therefore cannot satisfy its heavy burden of
demonstrating that the Waltham evidence would not
have convinced one juror that respondent should receive a sentence less than death on the other counts.

24
III.

The First Circuit’s application of its longestablished voir dire rule does not merit
review.

The First Circuit vacated respondent’s death sentence on another independent ground: that the district
court violated the supervisory rule established in Patriarca v. United States, 402 F.2d 314 (1st Cir. 1968),
by refusing to ask prospective jurors about the content
of the publicity to which they had been exposed. Under
that rule, if a trial judge, in her discretion and based
on her local vantage point, finds a “significant possibility” that prospective jurors “have been exposed to potentially prejudicial material,” then she must ask
those jurors what they have heard about the case. Id.
at 318; Pet. App. 50a-51a.
The First Circuit’s holding does not warrant review. The decision does not conflict with that of any
other court, and it will have little practical effect. The
Patriarca rule easily satisfies the deferential standard
under which this Court reviews the supervisory rules
of the lower courts. And content-specific questioning
was critical in the extraordinary circumstances of this
case, especially because certain seated jurors’ assurances of impartiality proved unreliable.
A. The decision below does not warrant
review.
1. The government identifies no circuit conflict on
the question whether a federal court of appeals may
exercise its supervisory power to require content-specific voir dire questions in cases attended by extraordinary pretrial publicity. The two decisions that the government asserts in passing “diverge[]” from the decision below (Pet. 31-32) held that voir dire inquiries
about bias involving police were not constitutionally
required; neither addressed supervisory authority.

25
United States v. Lawes, 292 F.3d 123, 126 (2d Cir.
2002); id. at 132 (Pooler, J., concurring in part and dissenting in part); United States v. Lancaster, 96 F.3d
734, 736, 741 (4th Cir. 1996) (en banc).
By contrast, the only circuit court to have addressed whether to retain a supervisory rule requiring
content-specific questioning after Mu’Min v. Virginia,
500 U.S. 415 (1991), reached the same conclusion as
the court below. See United States v. Beckner, 69 F.3d
1290, 1291-1293 & n.1 (5th Cir. 1995) (reversing conviction). And even if there were disagreement among
the circuits, the government correctly concedes (Pet.
32) that “some variation among circuits’ supervisory
rules is permissible.” See Ortega-Rodriguez v. United
States, 507 U.S. 234, 251 n.24 (1993). This Court
therefore “do[es] not often review the circuit courts’
procedural rules.” Joseph v. United States, 135 S. Ct.
705, 707 (2014) (Kagan, J., joined by Ginsburg &
Breyer, JJ., respecting denial of certiorari).
2. The decision below also has little practical effect.
Contrary to the government’s suggestion (Pet. 31) that
the decision has implications for high-profile trials
generally, the decision applies only to the small number of federal criminal cases that go to trial in the First
Circuit, and then only to the subset of those trials
where the judge finds “a significant possibility” of exposure to potentially prejudicial publicity. Pet. App.
50a (quoting Patriarca, 402 F.2d at 318). In that small
subset, trial judges within the First Circuit have been
following Patriarca for decades. E.g., United States v.
Casellas-Toro, 807 F.3d 380, 384 (1st Cir. 2015);
United States v. Quiles-Olivo, 684 F.3d 177, 183 (1st
Cir. 2012); United States v. Angiulo, 897 F.2d 1169,
1183 (1st Cir. 1990).

26
B. The decision below falls well within the
courts of appeals’ broad leeway to apply
supervisory rules.
1. This Court’s “review of rules adopted by the
courts of appeals in their supervisory capacity is limited in scope.” Ortega-Rodriguez, 507 U.S. at 244.
Thus, although the government nowhere acknowledges the relevant standard, circuit supervisory rules
pass muster so long as they do not “conflict[] with constitutional or statutory provisions,” Thomas v. Arn,
474 U.S. 140, 148 (1985), and “represent reasoned exercises of the courts’ authority,” Ortega-Rodriguez, 507
U.S. at 244. That deferential standard reflects the federal appellate courts’ leeway to mandate “procedures
deemed desirable from the viewpoint of sound judicial
practice although in nowise commanded by statute or
by the Constitution.” Cupp v. Naughten, 414 U.S. 141,
146 (1973). Indeed, “supervisory control of the District
Courts by the Courts of Appeals is necessary to proper
judicial administration in the federal system.” LaBuy
v. Howes Leather Co., 352 U.S. 249, 259-260 (1957).
The circuits’ supervisory power “rests on the firmest
ground when used,” as here, “to establish rules of judicial procedure.” Thomas, 474 U.S. at 147 n.5.
2. Patriarca’s requirement of content-specific questioning in high-profile cases is a paradigmatic example
of a permissible supervisory rule. The government
does not contend that the rule violates the Constitution or federal law. And the government cannot argue
that the rule is unreasoned. The government simply
takes a different view of the rule’s wisdom than the
First Circuit. But that disagreement is no basis for
overturning the rule. And in any event, the government’s arguments lack merit.

27
a. The Patriarca rule is a sound exercise of supervisory power. Although this Court held in Mu’Min,
500 U.S. 415, that the Sixth Amendment does not require content-specific questions, the Court expressly
acknowledged that federal courts “enjoy more latitude
in setting standards for voir dire” under their “supervisory power.” Id. at 424; id. at 447 n.6 (Marshall, J.,
dissenting) (noting, without contradiction, that
Mu’Min neither overturned existing supervisory rules
nor “prevent[ed] other Federal Circuits from following
suit”). All nine Justices in Mu’Min agreed that content-specific questions could prove helpful. Id. at 425
(majority op.); id. at 433 (O’Connor, J., concurring); id.
at 434 (Marshall, J., dissenting); id. at 451 (Kennedy,
J., dissenting). Mu’Min itself therefore makes clear
that a federal court may conclude that requiring content-specific questioning furthers salutary purposes in
the mine-run of high-profile cases and is therefore “desirable from the viewpoint of sound judicial practice.” 6
Cupp, 414 U.S. at 146.
Patriarca flows from bedrock principles. “Preservation of the opportunity to prove actual bias is a guarantee of a defendant’s right to an impartial jury.” Dennis v. United States, 339 U.S. 162, 171-172 (1950). But
merely asking a venireperson whether she can be fair
often will not suffice in cases that have attracted extensive and prejudicial publicity. When venirepersons
have been inundated with reporting and opinion about
the case before ever setting foot in the courtroom, they
“‘may have an interest in concealing [their] own
The many decisions directing such questioning, pre- and postMu’Min, prove the point. E.g., Beckner, 69 F.3d at 1292 n.1; State
v. Pauline, 60 P.3d 306, 318 (Haw. 2002); Bolin v. State, 736 So.
2d 1160, 1164-1166 (Fla. 1999); People v. Tyburski, 518 N.W.2d
441, 452 (Mich. 1994); see also 500 U.S. at 446-447 (Marshall, J.,
dissenting) (collecting cases).
6

28
bias’”—as Jurors 286 and 138 did here—“or ‘may be
unaware of it.’” Pet. App. 52a (quoting Smith v. Phillips, 455 U.S. 209, 221-222 (1982) (O’Connor, J., concurring)); see also Irvin v. Dowd, 366 U.S. 717, 728
(1961). “[T]he juror’s assurances” of impartiality in
such cases “cannot be dispositive of the accused’s
rights.” Murphy v. Florida, 421 U.S. 794, 800 (1975).
By ensuring that the assessment of impartiality is
made by the judge, not the juror, Patriarca adopts a
measured response to problems that this Court has
long recognized.
The government is therefore wrong to argue (Pet.
26) that requiring content-specific questioning “does
not reflect the critical inquiry”—that is, whether the
jurors can be impartial. Patriarca focuses on that very
inquiry: after learning what a juror has heard about a
case, the trial judge must assess “the effect of such exposure” on the juror’s ability to be impartial. 402 F.2d
at 318. Content-specific questioning facilitates that
inquiry by revealing what, and how much, a juror
thinks she knows about a case before the evidence has
come in, providing vital information about whether
she may have biases that she is unaware of or does not
want to admit.
b. This case vividly illustrates the soundness of the
Patriarca rule. The pretrial publicity here “stands unrivaled in American legal history.” Pet. App. 19a. The
district court found Patriarca’s prerequisites met, observing that prospective jurors’ exposure to prejudicial
pretrial publicity was “the biggest issue in voir dire,
obviously, because there are going to be a lot of people
with preconceptions,” Resp. C.A. Add. 307, and crediting respondent’s “legitimate concerns” “about jurors
who have fixed opinions * * * or who are vulnerable
to improper influence from media coverage,” Pet. App.
228a. No doubt for those reasons, the government at

29
first advocated content-specific questioning. See p. 5,
supra.
Nonetheless, the district court refused to permit
content questions, and when respondent objected, the
court candidly admitted that its decision made the jurors “to a large extent” judges of their own impartiality. Pet. App. 26a-27a. But the unprecedented circumstances of this case demanded something other than
acquiescence in the very problem Patriarca is designed
to prevent. This case did not simply involve pervasive
pretrial coverage; it included extensive coverage of “inaccurate or inadmissible information—like the details
of [respondent’s] un-Miranda-ized hospital interview
and the opinions of public officials,” as well as victims
and family members, “that [respondent] should die.”
Id. at 53a. If a venireperson’s primary recollection of
the coverage was that officials and family members
alike had called for the death penalty, that information would be central to assessing the venireperson’s ability to be impartial.
Indeed, although the government defends the district court’s voir dire at great length (Pet. 16-21), and
touts the jurors’ assurances that they could be impartial, there is every reason to doubt those assurances.
The district court seated one prospective juror who dissembled about calling respondent a “piece of garbage”
and sheltering in place, and another who hid a friend’s
suggestion to “play the part,” “get on the jury,” and
send respondent “to jail where he will be taken care
of.” See pp. 6-7, supra; Pet. App. 61a. Both said they
could be impartial—but neither told the truth when
questioned on matters pertinent to their impartiality.
That incident shows the difficulty of ensuring, in an
extraordinarily high-profile case, that jurors do not
have biases that they are unwilling to admit or preconceptions that they wrongly believe are irrelevant. The

30
First Circuit reasonably concluded that on the ultimate question of impartiality, the jurors’ say-so did not
suffice. 7
3. The government next argues that Patriarca is
inconsistent with the district judge’s discretion over
voir dire. Not so. Not only did Mu’Min acknowledge
federal courts’ supervisory powers to require contentspecific questioning, but the Court has also used its
own supervisory powers to regulate discrete aspects of
voir dire by compelling specific inquiries about racial
prejudice in certain circumstances. E.g., Aldridge v.
United States, 283 U.S. 308, 315 (1931); Rosales-Lopez
v. United States, 451 U.S. 182, 192 (1981) (plurality
op.); see also Ristaino v. Ross, 424 U.S. 589, 597 n.9
(1976). Indeed, the Court has reversed convictions and
death sentences for violation of that supervisory rule.
See, e.g., Aldridge, 283 U.S. at 315. The Court thus
has never understood the trial judge’s discretion over
voir dire to preclude limited, reasonable supervisory
rules.

The government wrenches from context (Pet. 25) language in
United States v. Hasting to argue that the First Circuit should
not have relied on its supervisory rule to vacate the death sentences “in this terrorism case,” in light of victim interests and the
burden of a retrial. 461 U.S. 499, 507 (1983). But in Hasting, the
Seventh Circuit had invoked supervisory authority to refuse to
review a (concededly inconsequential) constitutional error for
harmlessness, instead reversing the conviction “to discipline the
prosecutor.” Id. at 504. This Court held that the Seventh Circuit
had disregarded the interests protected by harmless-error review—those on which the government relies here. Id. at 507. The
Court did not suggest that a non-harmless violation of a supervisory rule would not warrant vacatur. Here, the First Circuit
properly reviewed the error for harmlessness. Pet. App. 60a; 18
U.S.C. 3595(c)(2)(C).
7

31
The government’s contrary argument relies primarily on the Court’s discussion of trial-judge discretion over voir dire in Skilling v. United States, 561 U.S.
358 (2010). But Skilling, stated only that voir dire
there passed constitutional muster. See id. at 395; see
also id. at 378 n.11. Skilling therefore does not suggest that an appellate court may never use supervisory
authority to mandate particular voir dire questions.
And far from “affirmatively repudiat[ing]” such rules
(Pet. 25), Skilling cited decisions in which this Court
mandated particular questioning. 561 U.S. at 386 (citing Rosales-Lopez). Skilling must be read against the
backdrop of those decisions.
The government also argues that the First Circuit
erred because it required “more extensive procedures”
than were approved in Skilling. Pet. 20 (emphasis
added). Not so. The Skilling trial judge asked contentspecific questions “about exposure to Enron-related
news and the content of any stories that stood out in
the prospective juror’s mind.” 561 U.S. at 374; accord
Pet. App. 31a n.19 (content-specific questions proposed
in this case “paraphrase[d]” those posed in Skilling).
And this Court relied on the jurors’ answers to those
questions in concluding that the seated jurors were not
biased. Skilling, 561 U.S. at 390 & n.26. Skilling thus
illustrates the value of content questioning in evaluating jurors’ preconceptions in high-profile cases—making plain just how inadequate the district court’s approach in this case was.
Moreover, the government is wrong to characterize
(Pet. 14-15) Patriarca as establishing an “inflexible”
rule that “denies district courts * * * broad discretion
to manage juries.” A district judge must exercise discretion to trigger the rule: Patriarca applies only “‘in
cases where there is, in the opinion of the [judge], a
significant possibility that jurors have been exposed to

32
potentially prejudicial material.’” Pet. App. 50a (quoting Patriarca, 402 F.2d at 318) (emphasis added).
That is, Patriarca does place “primary reliance” on the
trial court’s judgment and “local knowledge” (Pet. 16).
Here, the district court found the necessary conditions
present. Resp. C.A. Add. 307. Patriarca also leaves
district judges discretion as to the form and number of
questions, and the extent to which follow-up questions
are appropriate. 8 See United States v. Medina, 761
F.2d 12, 20 (1st Cir. 1985) (approving voir dire under
Patriarca where court “probed further” only for some
jurors).
4. Finally, the government criticizes (Pet. 14) the
First Circuit’s invocation of Patriarca as “unexpected.”
That objection lacks merit.
The First Circuit has long understood Patriarca to
state “the standards of this circuit.” Medina, 761 F.2d
at 20; see Pet. App. 55a. The First Circuit has consistently reviewed voir dire against Patriarca’s standards.
Pet. App. 52a-53a (discussing Medina, 761 F.2d at 20;
United States v. Vest, 842 F.2d 1319, 1332 (1st Cir.
1988); and United States v. Orlando-Figueroa, 229
F.3d 33, 43 (1st Cir. 2000)). And the court had applied
the principle underlying Patriarca—that “a judge cannot delegate to potential jurors the work of judging
their own impartiality,” Pet. App. 60a—to reverse convictions for inadequate investigation of jurors’ exposure to prejudicial publicity. E.g., United States v.
Rhodes, 556 F.2d 599, 601 (1st Cir. 1977).

For that reason, the government’s contention that content-specific questioning is unduly burdensome lacks merit. The court
need only ask one question about what the juror remembers, subject to discretionary follow-up. The Skilling court asked such
questions of dozens of prospective jurors and quickly completed
voir dire. 561 U.S. at 374.
8

33
The government objects (Pet. 12) that the First Circuit “had never before described” Patriarca as supervisory. But it is hardly unusual for a court to clarify that
an existing rule rests on supervisory grounds; this
Court has done the same. See Ristaino, 424 U.S. at
598 n.10. The First Circuit has unquestionably followed Patriarca, however labeled, since it issued. 9
Finally, the government relies heavily on the observation of an earlier First Circuit panel, while considering a mid-voir dire mandamus petition seeking a
change of venue, that the voir dire was “‘thorough and
appropriately calibrated to expose bias, ignorance, and
prevarication.’” Pet. 8 (quoting Pet. App. 250a). But
no question concerning the adequacy of voir dire was
before that panel, which held only that respondent had
not satisfied the mandamus standard. Pet. App. 230a.
Moreover, the mandamus panel did not know that the
voir dire had failed to uncover the “bias” and “prevarication” of Jurors 286 and 138. That panel’s characterization therefore cannot be treated as dispositive.

Even if that were not the case, a new supervisory rule would
apply “to the case in which the determination was made.” Castro
v. United States, 540 U.S. 375, 383 (2003).

9

34
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
DAVID PATTON
DEIRDRE D. VON DORNUM
DANIEL HABIB
FEDERAL DEFENDERS OF
NEW YORK, INC.
52 Duane Street, 10th Floor
New York, NY 10007
CLIFF GARDNER
LAW OFFICES OF
CLIFF GARDNER
1448 San Pablo Ave.
BERKELEY, CA 94702

DECEMBER 17, 2020

GINGER D. ANDERS
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave., NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
Ginger.Anders@mto.com

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
CRIMINAL NO. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV,
Defendant.
Filed November 25, 2014
OPINION AND ORDER
O’TOOLE, D.J.
The defendant’s Motion to Compel Discovery (dkt.
no. 602) is DENIED.
Documents from the Russian Government: The
defendant’s request for unredacted copies of
documents furnished by the Russian government after
the Marathon bombings is denied at this time. If the
defendant’s ability to use disclosed information at trial
is hampered by the redactions, the matter can be
revisited. In addition, the defendant’s request for
complete copies of pages with text which appears to
have been cut off inadvertently is moot in light of the
government’s representations that it will try to obtain
a copy of the materials with the text restored and will
produce the material if successful.
Pre-2013 Communication from the Russian
Government: The government represents that it has
disclosed the substance of the communication. It does
not appear that the production of a copy of the

2a
communication would furnish additional information
that would be helpful or material to the defense. The
defendant’s request for a copy of the communication
itself, which the government describes as consisting of
an unidentified Russian analyst’s opinion about the
significance of the underlying information, is therefore
denied.
Transcripts/Translations of the Defendant’s BOP
Calls: In light of the government’s agreement to
produce any transcripts in its possession, the
defendant’s request is moot.
Reports of Computer Forensic Examinations: The
government has represented that there are no other
reports of examination similar to the analysis of the
defendant’s computer referred to in the defendant’s
motion. (Mot. to Compel Ex. E (dkt. no. 602-5) (under
seal).) In light of the representation, the defendant’s
request is moot.
List of Digital Devices: The defendant’s request for
the “government’s list identifying which among [the
digital] devices it actually intends to use at trial,”
(Mot. to Compel) (dkt. no. 602), is denied in light of the
scheduling order establishing a deadline for
production of the government’s exhibit list.
Russian Communications Regarding Defense Team
Travel Issues: The defendant’s request is denied.
OIG Report: The defendant’s request is denied.
FBI Todashev Materials: The defendant seeks
production of certain FBI materials related to Ibragim
Todashev’s statements about Tamerlan Tsarnaev’s
participation in the murder of three men in Waltham
in 2011. With respect to this issue, the government
had submitted to me for in camera review FBI 302
reports of interviews of Todashev, as well as a video

3a
and audio recording of an additional interview. Only
one of these materials, an FBI 302 report dated June
7, 2013, is pertinent to the request. The government
objects to the request.
The government represents that a state law
enforcement investigation of the Waltham murders is
ongoing and for that reason invokes the limited
investigatory privilege. See Comm. of Puerto Rico v.
United States, 490 F.3d 50, 62-64 (1st Cir. 2007). It
also asserts that it has already conveyed the fact and
general substance of Todashev’s statements
concerning the murders, and principles governing
discovery in criminal cases do not require more.
After careful consideration, I agree with the
government as to both points. As to the first,
disclosure of the report risks revealing facts seemingly
innocuous on their face, such as times of day or
sequences of events, revelation of which would have a
real potential to interfere with the ongoing state
investigation. As to the second, I fully understand the
mitigation theory the defense thinks the requested
discovery may advance. After review, it is my
judgment that, contrary to the defense speculation,
the report does not materially advance that theory
beyond what is already available to the defense from
discovery and other sources. It would be a different
matter if Todashev were available as a potential
witness. Without that possibility, the utility of the
report to the defense in building a mitigation case is
very low at best. I conclude that the report is not
material and helpful in the necessary sense.
The defendant’s motion regarding this topic is
denied.
Search Warrant Return for Zubeidat Tsarnaeva’s
Emails: The requested materials do not appear to fall

4a
within the scope of Local Rule 116.1(c)(1)(B). 1 The
defendant’s request is therefore denied.
It is SO ORDERED.
/s/ George A. O’Toole, Jr.
United States District Judge

Implicit in this ruling is my understanding that the government
represents that the search warrant also did not lead to the
discovery of evidence that the government intends to use in its
case-in-chief. See L.R. 116.1(c)(1)(B)(i).

1

5a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
CRIMINAL NO. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV,
Defendant.
Filed April 17, 2014
ORDER
O’TOOLE, D.J.
The defendant’s discovery motions (dkt. nos. 233,
235) are DENIED with the exception that reports of
Ibragim Todashev’s statements to the FBI are to be
submitted to the Court for in camera review in a way
that indicates: (a) what will be produced to the
defendant, and (b) what the government seeks to
withhold from production.
It is SO ORDERED.
/s/ George A. O’Toole, Jr.
United States District
Judge

6a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
CRIMINAL NO. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV,
a/k/a “Jahar Tsarni,”
Defendant.
BEFORE THE HONORABLE
GEORGE A. O’TOOLE, JR.
UNITED STATES DISTRICT JUDGE
SEALED LOBBY CONFERENCE *
***
[3] PROCEEDINGS
THE CLERK: All rise.
(The Court enters the courtroom at 12:08 p.m.)
THE CLERK: The United States District Court for
the District of Massachusetts. Court is in session. Be
seated.
For a lobby conference in the case of United States
versus Dzhokhar Tsarnaev, 13-10200. Will counsel
identify yourselves for the record.

This transcript was unsealed during the appellate proceedings,
and publicly filed in the respondent's addendum in the court of
appeals.

*

7a
MR. WEINREB: Good afternoon, your Honor.
William Weinreb for the United States.
MR. CHAKRAVARTY:
Chakravarty, your Honor.

As

well

as

Aloke

MS. PELLEGRINI: Good afternoon, your Honor.
Nadine Pellegrini.
MR. BRUCK: Good afternoon, your Honor. David
Bruck, Judy Clarke and Tim Watkins for the
defendant.
THE COURT: Okay. Let me begin by resolving
some of the issues that were discussed the last
occasion. The government's motion in limine to
preclude reference to the Waltham triple homicide or
other alleged bad acts is granted as to the Waltham
events. The reason is that there simply is insufficient
evidence to describe what participation Tamerlan may
have had in those events. I know that the defense has
a theory about what those things were, but I don't
believe there's any evidence that would permit a
neutral finder of fact [4] to conclude that from the
evidence.
From my review of the evidence, which includes an
in camera review of some Todashev 302s, it is as
plausible, which is not very, that Todashev was the
bad guy and Tamerlan was the minor actor. There's
just no way of telling who played what role, if they
played roles. So it simply would be confusing to the
jury and a waste of time, I think, without very -without any probative value.
As to other bad acts, it will depend. I mean, I see
on the witness list witnesses who might be able to
testify to behavior of Tamerlan that would be relevant
to the defense theory of domination. So I’m not going

8a
to, as a blanket matter, exclude all bad acts. We'll deal
with those issues as they arise.
With respect to the government's motion to
preclude reference to plea negotiations, to the extent
the government presses its non-statutory aggravating
factor of absence of remorse, I think it's fair that the
defendant could respond by showing an offer to plead
guilty, but it would then be open to the government to
explain the conditions that were attached, including
with respect to the sentence and the refusal to
participate in a proffer. If that goes forward, let me
just suggest that the best way to handle that, if the
parties wanted to, would be by stipulation, perhaps.
***

9a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
CRIMINAL NO. 13-10200-GAO
UNITED STATES OF AMERICA
v.
DZHOKHAR A. TSARNAEV,
a/k/a “Jahar Tsarni,”
Defendant.
[Filed May 15, 2015]
PENALTY PHASE
VERDICT

10a
SECTION I. AGE OF DEFENDANT
General directions for Section I:
•

As used in this section, the term “capital counts”
refers to:
Count One (1): Conspiracy to use a weapon of mass
destruction resulting in death of Krystle Marie
Campbell, Officer Sean Collier, Lingzi Lu, and
Martin Richard
Count Two (2): Use of a weapon of mass destruction
(Pressure Cooker Bomb #1) on or about April 15,
2013, in the vicinity of 671 Boylston Street in
Boston, Massachusetts, and aiding and abetting,
resulting in death of Krystle Marie Campbell
Count Three (3): Possession or use of a firearm
(Pressure Cooker Bomb #1) during and in relation
to a crime of violence, namely, use of a weapon of
mass destruction as in Count Two of this section,
and aiding and abetting, resulting in death of
Krystle Marie Campbell
Count Four (4): Use of a weapon of mass
destruction (Pressure Cooker Bomb #2) on or about
April 15, 2013, in the vicinity of 755 Boylston
Street in Boston, Massachusetts, and aiding and
abetting, resulting in deaths of Lingzi Lu and
Martin Richard
Count Five (5): Possession or use of a firearm
(Pressure Cooker Bomb #2) during and in relation
to a crime of violence, namely, use of a weapon of
mass destruction as in Count Four of this section,
and aiding and abetting, resulting in deaths of
Lingzi Lu and Martin Richard
Count Six (6): Conspiracy to bomb a place of public
use, resulting in deaths of Krystle Marie Campbell,

11a
Officer Sean Collier, Lingzi Lu, and Martin
Richard
Count Seven (7): Bombing of a place of public use
(Pressure Cooker Bomb #1) on or about April 15,
2013, in the vicinity of 671 Boylston Street, Boston,
Massachusetts, and aiding and abetting, resulting
in death of Krystle Marie Campbell
Count Eight (8): Possession or use of a firearm
(Pressure Cooker Bomb #1) during and in relation
to a crime of violence, namely, the bombing of a
place of public use as in Count Seven of this section,
and aiding and abetting, resulting in death of
Krystle Marie Campbell
Count Nine (9): Bombing of a place of public use
(Pressure Cooker Bomb #2) on or about April 15,
2013, in the vicinity of 755 Boylston Street, Boston,
Massachusetts, and aiding and abetting, resulting
in deaths of Lingzi Lu and Martin Richard
Count Ten (10): Possession or use of a firearm
(Pressure Cooker Bomb #2) during and in relation
to a crime of violence, namely, the bombing of a
place of public use as in Count Nine of this section,
and aiding and abetting, resulting in deaths of
Lingzi Lu and Martin Richard
Count Twelve (12): Malicious destruction of
property by means of an explosive (Pressure
Cooker Bomb #1) on or about April 15, 2013, in the
vicinity of 671 Boylston Street in Boston,
Massachusetts, and aiding and abetting, resulting
in death of Krystle Marie Campbell
Count Thirteen (13): Possession or use of a firearm
(Pressure Cooker Bomb #1) during and in relation
to a crime of violence, namely, the malicious
destruction of property as in Count Twelve of this

12a
section, and aiding and abetting, resulting in death
of Krystle Marie Campbell
Count Fourteen (14): Malicious destruction of
property by means of an explosive (Pressure
Cooker Bomb #2) on or about April 15, 2013, in the
vicinity of 755 Boylston Street in Boston,
Massachusetts, and aiding and abetting, resulting
in deaths of Lingzi Lu and Martin Richard
Count Fifteen (15): Possession or use of a firearm
(Pressure Cooker Bomb #2) during and in relation
to a crime of violence, namely, malicious
destruction of property as in Count Fourteen of this
section, and aiding and abetting, resulting in
deaths of Lingzi Lu and Martin Richard
Count Sixteen (16): Possession or use of a firearm
(Ruger P95 9mm semiautomatic handgun) on or
about April 18, 2013, during and in relation to a
crime of violence, namely, conspiracy to use a
weapon of mass destruction as in Count One of this
section, and aiding and abetting, resulting in death
of Officer Sean Collier
Count Seventeen (17): Possession or use of a
firearm (Ruger P95 9mm semiautomatic handgun)
on or about April 18, 2013, during and in relation
to a crime of violence, namely, conspiracy to bomb
a place of public use as in Count Six of this section,
and aiding and abetting, resulting in death of
Officer Sean Collier
Count Eighteen (18): Possession or use of a firearm
(Ruger P95 9mm semiautomatic handgun) on or
about April 18, 2013, during and in relation to a
crime of violence, namely, conspiracy to maliciously
destroy property, and aiding and abetting,
resulting in death of Officer Sean Collier

13a
•

In this section, please indicate whether you
unanimously find the government has established
beyond a reasonable doubt that the defendant,
Dzhokhar Tsarnaev, was eighteen (18) years of age
or older at the time of the offense charged under
the particular capital count. You must mark one of
the responses.

1. Dzhokhar Tsarnaev was eighteen (18) years
of age or older at the time of the offense
charged under the particular capital count.
____ We unanimously find that this has been
proved beyond a reasonable doubt with
regard to all of the capital counts.
_____ We do not unanimously find that this has
been proved beyond a reasonable doubt with
regard to any of the capital counts.
_____ We unanimously find that this has been
proved beyond a reasonable doubt only with
regard to the following capital counts.
Identify each count by count number.

Directions:
•

For each capital count, if you do not unanimously
find the government has proven beyond a
reasonable doubt the defendant was eighteen years
of age or older at the time of the offense charged
under the particular capital count, then your
deliberations are over as to that count.

•

If there is no capital count for which you
unanimously find the government has proven
beyond a reasonable doubt the defendant was
eighteen years of age or older at the time of the

14a
offense, skip forward to Section VII and complete
that section in accordance with the directions
there. Then notify the Court that you have
completed your deliberations.
•

If you have found the government has proven
beyond a reasonable doubt the defendant was
eighteen years of age or older at the time of the
offense charged with regard to one or more capital
counts, continue on to Section II.

15a
SECTION II. GATEWAY FACTORS
General directions for Section II:
•

As used in this section, the term ''capital count(s)"
refers only to those counts for which you found the
defendant was eighteen years of age or older at the
time of the offense charged under the particular
count in Section I. Do not consider gateway factors
in this section with regard to any counts for which
you have not found the defendant was eighteen
years of age or older at the time of the offense
charged under the count in Section I.

•

In this section, please indicate which, if any, of the
following gateway factors you unanimously find
the government has proven beyond a reasonable
doubt. For each of the four gateway factors listed
below, you must mark one of the responses.

1. Dzhokhar Tsarnaev intentionally killed the
victim or victims of the particular capital
count you are considering.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.
1, 4, 5, 6, 9, 10, 14, 15

16a
2. Dzhokhar Tsarnaev intentionally inflicted
serious bodily injury that resulted in the
death of the victim or victims of the
particular capital count you are considering.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
__X__ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard ro the following capital counts.
Identify each count by count number.
1, 4, 5, 6, 9, 10, 14, 15
3. Dzhokhar
Tsarnaev
intentionally
participated in an act, contemplating that the
life of a person would be taken or intending
that lethal force would be used in connection
with a person, other than one of the
participants in the offense, and. the victim or
victims of the particular capital count you
are considering died as a direct result of the
act.
__X__ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.

17a
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

4. Dzhokhar
Tsarnaev
intentionally
and
specifically engaged in an act of violence,
knowing that the act created a grave risk of
death to a person, other than one of the
participants in the offense, such that
participation in the act constituted a reckless
disregard for human life and the victim or
victims of the particular capital count you
are considering died as a direct result of the
act.
__X__ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

Directions:
•

For each capital count you are considering in this
section, if you do not unanimously find the
government has proven beyond a reasonable doubt

18a
at least one of the above gateway factors with
respect to that count, then your deliberations are
over as to that count.
•

If there is no capital count for which you
unanimously find a gateway factor has been proved
beyond a reasonable doubt, skip forward to Section
VII and complete that section in accordance with
the directions there. Then notify the Court that you
have completed your deliberations.

•

If you have found at least one gateway factor with
regard to one or more capital counts, continue on to
Section III.

19a
SECTION III. STATUTORY AGGRAVATING
FACTORS
General directions for Section III:
•

As used in this section, the term “capital count(s)”
refers only to those counts for which you found the
defendant was eighteen years of age or older at the
time of the offense charged under the count in
Section I and at least one gateway factor in Section
II. Do not consider statutory aggravating factors in
this section with regard to any counts for which you
have not found the defendant was eighteen years of
age or older at the time of the offense charged
under the count in Section I and at least one
gateway factor in Section II.

•

In this section, please indicate which, if any, of the
following six (6) statutory aggravating factors you
unanimously find the government has proven
beyond a reasonable doubt. For each of the six
statutory aggravating factors listed below, you
must mark one of the responses.

1. The death, and injury resulting in death,
occurred during the commission and
attempted commission of, and during the
immediate flight from the commission of, an
offense under:
a. 18 U.S.C. § 2332a (use of a weapon of
mass destruction) [Applies to all capital
counts]; and/or
b. 18 U.S.C. § 844(i) (destruction of
property affecting interstate commerce
by explosives) [Only applies to capital
counts 1-10 and 12-15.]

20a
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

2. Dzhokhar Tsarnaev knowingly created a
grave risk of death to one or more persons in
addition to the victim of the offense in the
commission of the offense and in escaping
apprehension for the violation of the offense.
[Applies to all capital counts.]
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
__X__ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.
1, 4, 5, 6, 9, 10, 14, 15, 16, 17, 18

21a
3. Dzhokhar Tsarnaev committed the offense in
an especially heinous, cruel and depraved
manner in that it involved serious physical
abuse to the victim. [Only applies to capital
counts 1-10 and 12-15.]
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
__X__ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.
1, 4, 5, 6, 9, 10, 14, 15
4. Dzhokhar Tsarnaev committed the offense
after substantial planning and premeditation
to cause the death of a person and commit an
act of terrorism. [Only applies to capital
counts 1-10 and 12-15.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only

22a
with regard to the following capital counts.
Identify each count by count number.

5. Dzhokhar Tsarnaev intentionally killed and
attempted to kill more than one person in a
single criminal episode. [Only applies to
capital counts 1-10 and 12-15.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

6. Dzhokhar Tsarnaev is responsible for the
death of a victim, Martin Richard, who was
particularly vulnerable due to youth. [Only
applies to capital counts 1, 4, 5, 6, 9,10,14, and
15.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt

23a
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

Directions:
•

For each capital count you are considering in this
section, if you do not unanimously find the
government has proven beyond a reasonable doubt
at least one of the above statutory aggravating
factors with respect to that count, then your
deliberations are over as to that capital count.

•

If there is no capital count for which you
unanimously find at least one statutory
aggravating factor has been proved beyond a
reasonable doubt, skip forward to Section VII and
complete that section in accordance with the
directions there. Then notify the Court that you
have completed your deliberations.
If you have found one or more statutory
aggravating factors with regard to one or more
capital counts, continue on to Section IV.

24a
SECTION IV. NON-STATUTORY
AGGRAVATING FACTORS
General directions for Section IV:
•

As used in this section, the term “capital count(s)”
refers only to those counts for which you have
found that the defendant was eighteen years of age
or older at the time of the offense charged under
the count in Section I, and at least one gateway
factor in Section II, and at least one statutory
aggravating factor in Section III. Do not consider
non-statutory aggravating factors in this section
with regard to the counts for which you have not
found that the defendant was eighteen years of age
or older at the time of the offense charged under
the count in Section I, and at least one gateway
factor in Section II, and at least one statutory
aggravating factor in Section III.

•

In this section, please indicate which, if any, of the
following six (6) non-statutory aggravating factors
you unanimously find the government has proven
beyond a reasonable doubt. For each of the
proposed factors, you must mark one of the
responses provided.

1. In conjunction with committing acts of
violence and terrorism, Dzhokhar Tsarnaev
made statements suggesting that others
would be justified in committing additional
acts of violence and terrorism against the
United States. [Applies to all capital counts.]
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt

25a
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

2. Dzhokhar Tsarnaev caused injury, harm and
loss to:
a. Krystle Marie Campbell and her family
and friends [Only applies to capital
counts 1, 2, 3, 6, 7, 8, 12, and 13];
b. Martin Richard and his family and
friends [Only applies to capital counts
1, 4, 5, 6, 9, 10, 14, and 15];
c. Lingzi Lu and her family and friends
[Only applies to capital counts 1, 4, 5, 6,
9, 10, 14, and 15]; and/or
d. Officer Sean Collier and his family and
friends [Only applies to capital counts
1, 6, 16, 17, and 18].
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only

26a
with regard to the following capital counts.
Identify each count by count number.

3. Dzhokhar Tsarnaev targeted the Boston
Marathon, an iconic event that draws large
crowds of men, women and children to its
final stretch, making it especially susceptible
to the act and effects of terrorism. [Only
applies to capital counts 1-10 and 12-15.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

4. Dzhokhar Tsarnaev demonstrated a lack of
remorse. [Applies to all capital counts.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.

27a
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

5. Dzhokhar Tsarnaev murdered Officer Sean
Collier, a law enforcement officer who was
engaged in the performance of his official
duties at the time of his death. [Only applies
to capital counts 1, 6, 16, 17, and 18.]
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

6. Dzhokhar
Tsarnaev
participated
in
additional uncharged crimes of violence,
including assault with a dangerous weapon,
assault with intent to maim, mayhem, and
attempted murder:
a. On April 15, 2013, in Boston,
Massachusetts [Only applies to capital
counts 1-10 and 12-15]; and/or

28a
b. On or about April 19, 2013, in
Watertown, Massachusetts [Applies to
all capital counts].
____ We unanimously find that this factor has
been proved beyond a reasonable doubt with
regard to all of the applicable capital counts.
_____ We do not unanimously find that this factor
has been proved beyond a reasonable doubt
with regard to any of the applicable capital
counts.
_____ We unanimously find that this factor has
been proved beyond a reasonable doubt only
with regard to the following capital counts.
Identify each count by count number.

Directions:
•

After you have completed your findings in this
section (whether or not you have found any of the
above non-statutory aggravating factors to have
been proved), continue on to Section V.

29a
SECTION V. MITIGATING FACTORS
General directions for Section V:
•

As used in this section, the term “capital count(s)”
refers only to those counts for which you have
found that the defendant was eighteen years of age
or older at the time of the offense charged under
the count in Section I, and at least one gateway
factor in Section II, and at least one statutory
aggravating factor in Section III.

•

As to the alleged mitigating factors listed below,
please indicate which, if any, you find Dzhokhar
Tsarnaev has proven by a preponderance of the
evidence.

•

Recall that your vote as a jury need not be
unanimous with regard to each question in this
section. A finding with respect to a mitigating
factor may be made by one or more of the members
of the jury, and any member of the jury who finds
the existence of a mitigating factor may consider
such a factor established in making his or her
individual determination of whether or not a
sentence of death shall be imposed, regardless of
the number of other jurors who agree that the
factor has been established.

•

In the space provided, please indicate the number
of jurors who have found the existence of that
mitigating factor to be proven by a preponderance
of the evidence with regard to each of the capital
counts.

1. Dzhokhar Tsarnaev was 19 years old at the
time of the offenses.
Number of jurors who so find: _12_

30a
2. Dzhokhar Tsarnaev had no prior history of
violent behavior.
Number of jurors who so find: _11_
3. Dzhokhar Tsarnaev acted
influence of his older brother.

under

the

Number of jurors who so find: __3__
4. Whether because of Tamerlan’s age, size,
aggressiveness, domineering personality,
privileged status in the family, traditional
authority as the eldest brother, or other
reasons, Dzhokhar Tsarnaev was particularly
susceptible to his older brother’s influence.
Number of jurors who so find: __3__
5. Dzhokhar Tsarnaev’s brother Tamerlan
planned, led, and directed the Marathon
bombing.
Number of jurors who so find: __3__
6. Dzhokhar Tsarnaev’s brother Tamerlan was
the person who shot and killed Officer Sean
Collier.
Number of jurors who so find: __2__
7. Dzhokhar
Tsarnaev
would
not
have
committed the crimes but for his older
brother Tamerlan.
Number of jurors who so find: __3__
8. Dzhokhar Tsarnaev’s teachers in elementary
school, middle school, and high school knew
him to be hardworking, respectful, kind, and
considerate.
Number of jurors who so find: _12_

31a
9. Dzhokhar Tsarnaev’s friends in high school
and college knew him to be thoughtful,
caring, and respectful of the rights and
feelings of others.
Number of jurors who so find: __11_
10. Dzhokhar Tsarnaev’s teachers and friends
still care for him.
Number of jurors who so find: __3__
11. Dzhokhar Tsarnaev’s aunts and cousins love
and care for him.
Number of jurors who so find: _12_
12. Mental illness and brain damage disabled
Dzhokhar Tsarnaev’s father.
Number of jurors who so find: __12__
13. Dzhokhar Tsarnaev was deprived of needed
stability
and
guidance
during
his
adolescence by his father’s mental illness and
brain damage.
Number of jurors who so find: __2__
14. Dzhokhar Tsarnaev’s father’s illness and
disability made Tamerlan the dominant male
figure in Dzhokhar’s life.
Number of jurors who so find: __2__
15. Dzhokhar Tsarnaev was deprived of the
stability and guidance he needed during his
adolescence due to his mother’s emotional
volatility and religious extremism.
Number of jurors who so find: __1__
16. Dzhokhar Tsarnaev’s mother facilitated his
brother Tamerlan’s radicalization.

32a
Number of jurors who so find: __10_
17. Tamerlan Tsarnaev became radicalized first,
and then encouraged his younger brother to
follow him.
Number of jurors who so find: __5__
18. Dzhokhar Tsarnaev’s parents’ return to
Russia in 2012 made Tamerlan the dominant
adult in Dzhokhar’s life.
Number of jurors who so find: __2__
19. Dzhokhar Tsarnaev is highly unlikely to
commit, incite, or facilitate any acts of
violence in the future while serving a lifewithout-release sentence in federal custody.
Number of jurors who so find: __1__
20. The government has the power to severely
restrict
Dzhokhar
Tsarnaev’s
communications with the outside world.
Number of jurors who so find: __2__
21. Dzhokhar Tsarnaev has expressed sorrow
and remorse for what he did and for the
suffering he caused.
Number of jurors who so find: __2__
General directions for Section V, continued:
•

The law does not limit your consideration of
mitigating factors to those that can be articulated
in advance. Therefore, you may consider during
your deliberations any other factor or factors in
Dzhokhar
Tsarnaev’s
background,
record,
character, or any other circumstances of the offense
that mitigate against imposition of a death
sentence.

33a
•

The following extra spaces are provided to write in
additional mitigating factors, if any, found by any
one or more jurors.

•

If more space is needed, write “CONTINUED” and
use the reverse side of this page.

22.
Number of jurors who so find: _____
23.
Number of jurors who so find: _____
24.
Number of jurors who so find: _____
25.
Number of jurors who so find: _____
26.
Number of jurors who so find: _____
27.
Number of jurors who so find: _____
28.
Number of jurors who so find: _____
29.
Number of jurors who so find: _____

34a
30.
Number of jurors who so find: _____
31.
Number of jurors who so find: _____
Directions:
•

After you have completed your findings in this
section (whether or not you have found any
mitigating factors in this section), continue on to
Section VI.

35a
SECTION VI. DETERMINATION OF
SENTENCE
General directions for Section VI:
•

As used in this section, the term “capital counts”
refers only to those counts for which you found the
defendant was eighteen years of age or older at the
time of the offense charged in the count in Section
I, and at least one gateway factor in Section II, and
at least one statutory aggravating factor in Section
III. You may not impose a sentence of death on a
particular capital count unless you have first found
with regard to that count, unanimously and beyond
a reasonable doubt, the defendant was eighteen
years of age or older at the time of the offense
charged in the count in Section I, and at least one
gateway factor in Section II, and at least one
statutory aggravating factor in Section III.

•

In this section, enter your determination of
Dzhokhar Tsarnaev’s sentence with regard to each
of the capital counts.

Based upon consideration of whether the
aggravating factor or factors found to exist for
each count sufficiently outweigh the mitigating
factor or factors found to exist for that count to
justify a sentence of death, or, in the absence of
a mitigating factor, whether the aggravating
factor or factors alone are sufficient to justify a
sentence of death:
_____ We, the jury, unanimously find, for all
the capital counts, that the aggravating
factor or factors found to exist
sufficiently outweigh the mitigating
factor or factors found to exist or, in the
absence of any mitigating factors, that
the aggravating factor or factors are

36a
alone sufficient—so that death is the
appropriate sentence for Dzhokhar
Tsarnaev. We vote unanimously that
Dzhokhar Tsarnaev shall be sentenced
to death separately as to each count.
_____ We, the jury, unanimously find that a
sentence of life in prison without the
possibility of release is the appropriate
sentence for Dzhokhar Tsarnaev for all
of the capital counts. We vote
unanimously that Dzhokhar Tsarnaev
shall be sentenced to life imprisonment
without the possibility of release
separately as to each count.
__X__ We, the jury, unanimously find, for
some of the capital counts, that the
aggravating factor or factors found to
exist
sufficiently
outweigh
the
mitigating factor or factors found to
exist or, in the absence of any
mitigating factors, that the aggravating
factor or factors are themselves
sufficient—so that death is the
appropriate sentence for Dzhokhar
Tsarnaev with regard to each of the
following capital counts only (identify
each count by count number):
4, 5, 9, 10, 14, 15

With regard to the above listed capital
counts, we vote unanimously that
Dzhokhar Tsarnaev shall be sentenced
to death as to each count.

37a
_____ Based upon our consideration of the
evidence and in accordance with the
Court’s instructions, after making all
reasonable efforts, we, the jury, are
unable to reach a unanimous verdict in
favor of a life sentence or in favor of a
death sentence, for any of the capital
counts.
Directions:
•

After you have completed your sentence
determination in this section (regardless of what
the determination was), continue on to Section VII.

38a
SECTION VII. CERTIFICATION REGARDING
DETERMINATION OF SENTENCE
Each juror must sign his or her name and juror
number below, indicating that the above sentence
determinations accurately reflect the jury’s decisions:
[REDACTED]
Date:

5/15/15

Directions:
•

After you have completed this section, continue on
to Section VIII.

39a
SECTION VIII. CERTIFICATION
By signing your name below, each of you individually
certifies that consideration of the race, color, religious
beliefs, national origin, or the sex of Dzhokhar
Tsarnaev or the victims was not involved in reaching
your individual decision. Each of you further certifies
that you, as an individual, would have made the same
recommendation regarding a sentence for the crime or
crimes in question regardless of the race, color,
religious beliefs, national origin, or the sex of
Dzhokhar Tsarnaev, or the victims.
[REDACTED]
Date:

5/15/15

